<html>
<title> - SETTING POST-SEPTEMBER 11TH INVESTIGATIVE PRIORITIES AT THE BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 SETTING POST-SEPTEMBER 11TH INVESTIGATIVE PRIORITIES AT THE BUREAU OF 
                  IMMIGRATION AND CUSTOMS ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2006

                               __________

                           Serial No. 109-170

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
29-581 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Elizabeth Daniel, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 28, 2006...................................     1
Statement of:
    Ryan, Joseph F., Ph.D., Chairperson, Department of Criminal 
      Justice and Sociology, PACE University; Caroline 
      Fredrickson, director, Washington Legislative Office, 
      American Civil Liberties Union; and Joseph R. Webber, 
      Special Agent in Charge (retired), Bureau of Immigration 
      and Customs Enforcement, U.S. Department of Homeland 
      Security...................................................    74
        Fredrickson, Caroline....................................    99
        Ryan, Joseph F...........................................    74
        Webber, Joseph R.........................................   109
    Stana, Richard M., Director, Homeland Security and Justice 
      Issues, U.S. Government Accountability Office; Richard L. 
      Skinner, Inspector General, U.S. Department of Homeland 
      Security; and Robert A. Schoch, Deputy Assistant Director, 
      National Security Division, Office of Investigations, U.S. 
      Immigration and Customs Enforcement, Department of Homeland 
      Security...................................................    10
        Schoch, Robert A.........................................    43
        Skinner, Richard L.......................................    33
        Stana, Richard M.........................................    10
Letters, statements, etc., submitted for the record by:
    Fredrickson, Caroline, director, Washington Legislative 
      Office, American Civil Liberties Union, prepared statement 
      of.........................................................   102
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, March 28, 2006 article..................     6
    Ryan, Joseph F., Ph.D., Chairperson, Department of Criminal 
      Justice and Sociology, PACE University, prepared statement 
      of.........................................................    77
    Schoch, Robert A., Deputy Assistant Director, National 
      Security Division, Office of Investigations, U.S. 
      Immigration and Customs Enforcement, Department of Homeland 
      Security:
        July 30, 2004 memorandum.................................    64
        Prepared statement of....................................    45
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Skinner, Richard L., Inspector General, U.S. Department of 
      Homeland Security, prepared statement of...................    35
    Stana, Richard M., Director, Homeland Security and Justice 
      Issues, U.S. Government Accountability Office, prepared 
      statement of...............................................    12
    Webber, Joseph R., Special Agent in Charge (retired), Bureau 
      of Immigration and Customs Enforcement, U.S. Department of 
      Homeland Security, prepared statement of...................   113

 
 SETTING POST-SEPTEMBER 11TH INVESTIGATIVE PRIORITIES AT THE BUREAU OF 
                  IMMIGRATION AND CUSTOMS ENFORCEMENT

                              ----------                              


                        TUESDAY, MARCH 28, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2247, Rayburn House Office Building, Hon. Chris Shays 
(chairman of the subcommittee) presiding.
    Present: Representatives Shays, Platts, Kucinich, and Van 
Hollen.
    Staff present: Lawrence Halloran, staff director and 
counsel; Robert A. Briggs, analyst; Marc LaRoche, intern; 
Elizabeth Daniel, professional staff member; Andrew Su, 
minority professional staff member; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Setting Post-September 11th 
Investigative Priorities at the Bureau of Immigration and 
Customs Enforcement'' is called to order.
    Homeland security will never be about certainties. It will 
always be about probabilities, about risks and about choices. 
Which cargo containers to inspect? Which air baggage to screen? 
Or, as we ask today, who among the estimated 12 million non-
citizens illegally residing within our borders should the 
Department of Homeland Security [DHS], choose to pursue?
    In creating the Department of Homeland Security, the goal 
was to consolidate previously dispersed security functions to 
gain the seamlessness and synergies needed to confront post-
September 11th threats. The DHS Bureau of Immigration and 
Customs Enforcement [ICE], brought under one bureaucratic roof 
for the first time the interior enforcement functions of 
Immigration and Naturalization Service, formerly part of the 
Department of Justice, and the investigative arm of the 
Treasury Department's U.S. Customs Service. The merger doubled 
the number of agents available to secure the homeland against 
those who would exploit our openness and hospitality.
    But in 2004, we learned that suspected terrorists, who 
entered the country on revoked visas, were not being 
consistently tracked or removed. Cumbersome, reactive processes 
at ICE raised questions about how the bureau sets investigative 
priorities to meet new threats to national security. At our 
request, the Government Accountability Office [GAO], examined 
how the ICE Office of Investigations is organized, how risks 
are evaluated and how the Department's largest investigative 
force allocates resources against a diverse, changing mission 
portfolio.
    GAO found inherited structures and missions still tend to 
dominate ICE enforcement activities. Only a small percentage of 
investigative resources are focused on national security cases. 
Even that nexus to national security is often passively imputed 
to legacy lines of businesses, like munitions violations and 
illegal exports, rather than being driven by a proactive effort 
to target vulnerabilities. Drugs, financial crimes, general 
immigration violations, smuggling, human trafficking, document 
fraud and worksite enforcement draw the bulk of ICE attention.
    These are important missions, but the challenge remains to 
incorporate a variety of inherited mandates into a coherent 
strategy based on clear-eyed risk assessment. Under that 
strategy, ICE should actively probe for systemic weaknesses 
that could be exploited to our detriment. We have to assume the 
terrorists are doing the same.
    GAO did find some evidence national security risks are 
beginning to drive investigative priorities. While the bureau 
has authority to look into any employer suspected of hiring 
illegal aliens, ICE investigators have been instructed to focus 
their attention on critical infrastructure sites. Recent 
actions against non-citizens found working at nuclear 
facilities and defense plants demonstrate the effective fusion 
of the immigration and security missions.
    Still, the effort to achieve the symbiosis more broadly and 
consistently presents profound challenges. Old field structures 
may not serve new missions. Traditional law enforcement methods 
do not always measure tangible outcomes against changing 
threats. Like sand in the gears, some cases still trigger 
bureaucratic turf battles and clog interagency communication 
and cooperation channels between ICE and other investigative 
forces inside and outside DHS. Miscast investigative priorities 
can appear to target enforcement activity arbitrarily or 
inappropriately on persons who pose little real threat to our 
security.
    These issues will be addressed by two panels of witnesses 
who bring expertise, experience and insight to our discussion. 
We are grateful for their time and we look forward to their 
testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.001
    
    [GRAPHIC] [TIFF OMITTED] T9581.002
    
    Mr. Shays. At this time, the Chair would recognize our 
distinguished ranking member, Mr. Kucinich.
    Mr. Kucinich. First of all, I want to thank the Chair for 
holding this hearing. I want to thank each and every one of you 
who has made a career of serving our government, who is 
dedicated to the service of the people. And I say that because 
I don't want you to take anything I am about to say personally.
    When the Department of Homeland Security was formed, I 
didn't even like the name of it, because I thought the name of 
it had a whiff of something that wasn't particularly 
democratic. When the Department of Homeland Security was formed 
I predicted that it would take 10 years at least before anyone 
would know how to integrate all the parts. In their various 
constituent members, before the Department of Homeland 
Security, a lot of these various departments were doing a 
pretty good job. And the creation of the Department itself--
this really--I mean we could take this discussion to a whole 
different level, which was that trip necessary? Can you really 
create a functional working Department of Homeland Security 
within the mandate of the legislation a few years ago. But 
inasmuch as this is where we are, even though the Department's 
3 years-old, its structure, missions, character, still in 
progress. At the macro and micro levels of DHS, there's still 
much confusion; much excess needs to be cut; overlap and 
duplication needs to be eliminated. Management reform urgently 
needed.
    The consequences of this poor organization are great, even 
though it was predictable. In 3 short years on the job, we've 
seen all kinds of problems from the ambiguous color-coded 
terrorist threat warnings, for the media consumption scare the 
hell out of the American people. It reflects on the Department. 
People get mad at the DHS, when really it was some PR guy 
working for the White House, who tried to force this through 
implementation at the Department level.
    You see the people loosing confidence in the system already 
with the Homeland Security getting blamed for evacuation, 
rescue, recovery efforts during Hurricanes Katrina and Rita.
    I mean think about it. What we've done is create a system 
that is guaranteed to not work. And we're blaming the people 
who run it, when the system wasn't going to work in the first 
place.
    We hear now interagency communication needs to be improved; 
right. An article in today's New York Times illustrates how 
undercover GAO testers slipped radioactive materials over two 
points to the U.S. border. The Border Patrol agents stopped the 
testers; asked for their licenses, issued by the NRC. It 
couldn't verify with the NRC whether or not their licenses were 
valid or fraudulent. In fact, the testers had forged licenses. 
They were allowed to pass through anyway. If there had been 
effective communication, this wouldn't have happened.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.003
    
    [GRAPHIC] [TIFF OMITTED] T9581.004
    
    Mr. Kucinich. Now, I wonder in the old--before the 
Department of Homeland Security was formed, if in the formation 
of this Department, we have actually impeded the communication 
between the various constituent elements.
    Now, the next national disaster, whether it is man made or 
natural when we created a department of Washington bureaucrats 
who are forced to bicker with each other. It's inevitably the 
American people pay the price.
    Now, under DHS, the new immigration and customs enforcement 
missions prevent acts of terrorists by targeting the people, 
money, and materials that support terrorist and criminal 
activities.
    And this organization, which is the largest investigative 
arm of the Department, is responsible for identifying and 
shutting down vulnerabilities in the Nation's border, and the 
economic transportation and infrastructure security. That's 
according to the Web site.
    A GAO study found that 13 percent of ICE's investigations 
concerned with national security--the remaining investigations 
were related to narcotics, financial crimes, general alien 
investigations. Now are these numbers surprising? Are the 
numbers proportionate to the threats ICE should be 
investigating? How much more does ICE investigate threats of 
terrorism than previous customs service and INS? Are there 
border-related crimes, like drug smuggling, for example, being 
crowded out by this new organization? If they are crowded out 
by ICE's new priorities, then whose handling them? Are they 
being handled adequately?
    I mean ICE has an enormous job, and our country has many 
vulnerabilities. I would like to highlight one such 
vulnerability as a case in point. There's an illegal tunnel 
that starts in Brazil and ends in the United States, an illegal 
product: Brazilian pig iron made with slave labor is channeled 
through this tunnel on a regular basis. It has been happening 
for years, and ICE knows about it. Oh, well, ICE tells the 
Congressman, it has supposedly been investigating the case in 
Brazil since 2004. No progress has been made since then. From 
July 2004 to May 2005 not a single ICE investigator has visited 
the Piaui region of Brazil where the slave made pig iron is 
produced. I have written ICE and the Customs Border Protection 
numerous times, to inquire about this investigation; never got 
a response. I can understand. I mean they are just so busy 
trying to figure out how to work. The job isn't getting done. 
When American minors are put out of work because they are 
forced to grossly and unfairly compete with slave labor, I 
would say this is an economic vulnerability, not to mention 
when ICE isn't doing its job investigating slave labor 
allegations. We aren't able to enforce their law, which 
prohibits the importation of products made with slave labor. 
The President calls for a 6-percent increase in the DHS budget, 
including a 21 percent increase in funding for ICE. I want to 
know exactly how this money is going to be used. How is it 
going to improve DHS and ICE's ability to address our country's 
many significant vulnerabilities and get the job done. The 
taxpayers deserve to know if they are getting their money's 
worth.
    So I hope, Mr. Chairman, the hearing, which I appreciate 
that you have called, will be able to address some of these 
issues.
    I want to thank the GAO and Inspector Skinner for their 
work. I look forward to the results of this hearing, and again, 
I wasn't for it at the beginning. Thanks.
    Mr. Shays. Thank you very much. Just while the gentleman is 
here, I would just want to put on the record, because I will be 
saying it when he is not here, I think the Department makes a 
tremendous amount of sense. We just want it to work right. We 
want to be able to maximize the people who can work in this 
area, and I think it made sense to see that combination. We 
just want to make sure it is going to work the way we intended 
it.
    So at this time, before the gentleman leaves, I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and the 
record will remain open for 3 days for that purpose. And 
without objection, so ordered.
    I ask further unanimous consent that all Members be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    At this time, the Chair would recognize Mr. Richard M. 
Stana, Director, Homeland Security and Justice Issues, U.S. 
Government Accountability Office; Mr. Richard L. Skinner, 
Inspector General, U.S. Department of Homeland Security, and 
Mr. Robert Schoch, am I pronouncing the name correctly?
    Mr. Schoch. You are, sir.
    Mr. Shays. Thank you. Deputy Assistant Director, National 
Security Division, ICE Office of Investigations, U.S. 
Department of Homeland Security.
    So we have a great panel here. I'd ask you for all three of 
you to stand. If there is anyone who might respond with you, 
you know, you might call on them, rather than my swearing them 
in later, if they would raise their hand and stand as well. Is 
there anyone that you would like possibly have join you?
    OK. You guys are on your own.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative. I'm talking a little softly. I think it is 
having a hearing after lunch, but I want you guys to really 
make sure I stay awake, so speak loudly and forcefully and with 
passion and conviction and all of that.
    Mr. Stana, am I pronouncing your name correct?
    Mr. Stana. Yes.
    Mr. Shays. Great.
    Mr. Stana. Stana.
    Mr. Shays. Nice to have you here.
    Mr. Stana. Thank you.
    Mr. Shays. Now, I am going to do one thing: I am going to 
adjust my chair. I am either going to shoot down low, and I 
don't want anyone to laugh, but my chair is leaning backward. 
So excuse me a second. OK. Still stinks, but here we go. Mr. 
Stana, you have the floor.

STATEMENTS OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; RICHARD 
  L. SKINNER, INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND 
  SECURITY; AND ROBERT A. SCHOCH, DEPUTY ASSISTANT DIRECTOR, 
  NATIONAL SECURITY DIVISION, OFFICE OF INVESTIGATIONS, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

                 STATEMENT OF RICHARD M. STANA

    Mr. Stana. Thank you. Chairman Shays and members of the 
subcommittee. I am pleased to be here today to discuss how ICE 
allocates its investigative resources. The events of September 
11th demonstrated that terrorists can exploit vulnerabilities 
in our border control and internal enforcement systems to 
enable their criminal deeds.
    ICE's mission is to prevent terrorist attacks within the 
United States, and reduce our vulnerability to terrorism while 
ensuring its mandated customs, immigration, and Federal 
protective enforcement functions are not diminished.
    My prepared statement today is based on a report we did for 
this subcommittee on how ICE's Office of Investigations has 
structured itself and used its 5,600 investigators to perform 
its missions and address vulnerabilities.
    In my oral statement, I would like to focus on three main 
points: First, OI's investigative activities and organizational 
structures largely reflect those of legacy Customs and INS. For 
the most part, OI has the same authority and is doing the kinds 
of investigations that Customs and INS did, although it seeks 
to focus on investigations that might have an impact on 
national security.
    For example, in investigating employers that might have 
violated laws that regulate alien employment in the workplace, 
it is focusing on employers at critical infrastructure sites 
rather than on employers that historically employed large 
numbers of unauthorized workers.
    As for OI's field structure, it was created by merging the 
existing customs and INS field offices located in cities near 
major ports of entry, high volume smuggling corridors, 
proximity to State and Federal prisons, and significant money 
laundering infrastructure.
    OI recognizes that its field structure is geared more 
toward legacy missions and not ideally matched to the new DHS 
mission, but budget constraints have limited large-scale 
relocations of offices and investigators.
    My second point is that although there is no firm standard 
for how OI should distribute its investigative resources, a 
large majority of its caseload did not have a direct nexus to 
national security.
    About 10 to 15 percent of OI's investigative resources was 
devoted to investigations that it has identified as national 
security related. There is some question as to how many of 
these were actually national security related.
    On the other hand, over half was devoted to legacy mission 
investigations involving drugs, financial crime, or general 
alien issues. Reasons for this distribution include the sources 
and types of leads that OI receives, its budgetary commitment 
to drug investigations, and legacy mission functions and 
expertise.
    For example, OI receives funding to support the President's 
National Drug Control Strategy, and has continued the legacy 
Customs practice of responding to violations relating to drug 
seizures at ports of entry.
    As a second example, OI continues to perform the legacy INS 
practice of identifying aliens incarcerated in prisons and 
jails who are eligible for removal from the United States.
    My final point is that OI lacks several key elements that 
could help it better insure that it focuses its limited 
resources on the greatest potential vulnerabilities. OI has 
taken some initial steps to introduce risk management into its 
operations, in part, by giving priority to leads with a 
potential impact on national security.
    However, OI has not conducted a comprehensive risk 
assessment to determine what types of violations present the 
greatest risks for exploitation by terrorists and other 
criminals. Such an assessment could help OI prioritize its 
efforts and direct its resources toward those investigations 
that address the most significant vulnerabilities.
    We also found that OI had not yet developed outcome-based 
performance measures. Such measures would provide a basis for 
gauging effectiveness and identifying areas for improvement.
    We also found that OI did not have sufficient monitoring 
and communications systems to help ensure that the potential 
vulnerabilities it uncovers are fixed by the agencies and 
private partners that manage affected programs.
    For example, we recently found that at the end of 
Immigration Benefit Fraud investigations, OI was not always 
notifying U.S. citizenship and immigration services personnel 
about potential systemic vulnerabilities in their adjudication 
process.
    Such information could help U.S. CIS decide what policy and 
procedural changes may be needed to address the 
vulnerabilities.
    We made recommendations to the Assistant Secretary for ICE 
to take specific actions related to risk management and 
performance measurement, as well as monitoring and 
communicating significant vulnerabilities to other agencies.
    In closing, as DHS' primary investigative agency, OI can 
play a critical role in our Nation's effort to reduce our 
vulnerability to a terrorist attack or criminal operation.
    While OI states that it places priority on national 
security, cases considered to be directly related to national 
security have consumed a relatively small portion of OI 
resources. Applying additional risk management principles, such 
as conducing a more comprehensive risk assessment to identify 
the most significant vulnerabilities, developing better 
performance measures, and enhancing its monitoring and 
communication activities could better ensure that OI directs 
its finite resources to areas of highest priority.
    Mr. Chairman, this concludes my statement, and I would be 
happy to answer any questions that you or other members of the 
subcommittee may have.
    [The prepared statement of Mr. Stana follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.005
    
    [GRAPHIC] [TIFF OMITTED] T9581.006
    
    [GRAPHIC] [TIFF OMITTED] T9581.007
    
    [GRAPHIC] [TIFF OMITTED] T9581.008
    
    [GRAPHIC] [TIFF OMITTED] T9581.009
    
    [GRAPHIC] [TIFF OMITTED] T9581.010
    
    [GRAPHIC] [TIFF OMITTED] T9581.011
    
    [GRAPHIC] [TIFF OMITTED] T9581.012
    
    [GRAPHIC] [TIFF OMITTED] T9581.013
    
    [GRAPHIC] [TIFF OMITTED] T9581.014
    
    [GRAPHIC] [TIFF OMITTED] T9581.015
    
    [GRAPHIC] [TIFF OMITTED] T9581.016
    
    [GRAPHIC] [TIFF OMITTED] T9581.017
    
    [GRAPHIC] [TIFF OMITTED] T9581.018
    
    [GRAPHIC] [TIFF OMITTED] T9581.019
    
    [GRAPHIC] [TIFF OMITTED] T9581.020
    
    [GRAPHIC] [TIFF OMITTED] T9581.021
    
    [GRAPHIC] [TIFF OMITTED] T9581.022
    
    [GRAPHIC] [TIFF OMITTED] T9581.023
    
    [GRAPHIC] [TIFF OMITTED] T9581.024
    
    [GRAPHIC] [TIFF OMITTED] T9581.025
    
    Mr. Shays. Thank you, Mr. Stana. Mr. Skinner.

                STATEMENT OF RICHARD L. SKINNER

    Mr. Skinner. Mr. Chairman, members of the subcommittee, 
thank you for having me here today.
    I will focus my remarks on the results of our assessment of 
the proposal to merge Customs and Border Protection [CBP], and 
Immigration and Customs Enforcement [ICE].
    We issued a report on this subject in November 2005. The 
objective of our review was to determine the extent of CBP and 
ICE coordination problems, and whether a merger of the two 
organizations would solve those problems.
    We interviewed more than 600 individuals from public, 
private, and non-profit sectors in 10 cities across the country 
and at 63 CPB and ICE facilities.
    Since neither CPB nor ICE was given responsibility for the 
full scope of enforcement activities and because they both rely 
heavily on each other for assistance, it is imperative that 
they coordinate very closely.
    However, as illustrated in our report, CBP and ICE were not 
coordinating their efforts in an effective manner.
    We made 14 recommendations aimed at improving coordination 
and integrating operations. We identified coordination 
challenges that affected apprehension, detection, and removal 
operations; investigation and investigative operations; and 
intelligence activities.
    With respect to apprehension, detention, and removal 
operations, organizational priorities have undercut 
coordination between CPB's alien apprehension efforts and ICE's 
detention and removal efforts.
    The failure to coordinate interagency planning and 
budgetary processes has contributed to a resource imbalance.
    CBP's front-end apprehension capabilities grew, and ICE's 
downstream detention and removal capabilities did not. This 
imbalance placed a strain on ICE's detention and removal 
resources and reduced the impact of CBP's alien apprehension.
    With regards to investigations, the separation of 
enforcement functions between CPB and ICE hampered the 
coordination of interdiction and investigative efforts.
    Now that inspections and investigations are in separate 
organizations, ICE does not accept as many cases or case 
referrals from CPB. Likewise, CBP relies less on ICE to 
investigate the violations it uncovers.
    Due to the decline of ICE's acceptance rate, CPB has 
reportedly referring more cases to other law enforcement 
authorities, such as the Drug Enforcement Administration, 
without first notifying ICE.
    Also, in the past, investigators and inspectors often 
develop referrals jointly. Now many of these referrals 
reportedly never get to an ICE investigator. Instead, CBP is 
now using its own investigative resources to investigate many 
cases.
    Unless there is very close cooperation and coordination, 
the use of internal CBP investigative resources could adversely 
impact ICE's investigative activities even further.
    Finally, with regard to intelligence activities, although 
CBP and ICE intelligence requirements overlap, coordination 
between the two is limited.
    Both CBP and ICE require intelligence gathering regarding 
illegal aliens, criminal aliens, alien smuggling, drug 
trafficking, fraudulent travel documents, and import and export 
violations.
    Despite their shared intelligence needs, however, the two 
organizations have separate intelligence structures and 
products. Because the intelligence collection and analysis 
activities of CBP and ICE are uncoordinated, it is difficult 
for intelligence analysts to connect the dots to create a 
comprehensive threat assessment for border security.
    In conclusion, to resolve the coordination problems, we 
were prepared to recommend that ICE and CPB be merged. While we 
were conducting our review, however, the Secretary, after 
conducting his own review of the Department's operational and 
organizational structure, announced six new imperatives. One of 
the imperatives was to strengthen border security and in 
interior enforcement through an integrated mix of additional 
staff, new technology, and enhanced infrastructure investment.
    Since the issuance of our report in November 2005, DHS 
dismantled the Border and Transportation Security Directorate. 
CBP and ICE now report directly to the Office of the Secretary. 
That created among other things the Secure Border Initiative, 
the ICE-CBP Coordination Council, and the Office of 
Intelligence and Analysis.
    These efforts are intended to address some of the 
coordination issues that we identified in our report and to 
help better integrate CBP and ICE operations.
    From what we know, of these emerging efforts, we believe 
that the Department is taking the necessary steps to addressing 
the coordination problems. However, these steps are still works 
in progress. We have not yet had the opportunity to assess 
whether the actions taken or proposed actually have been or 
will be effective in improving coordination between CPB and 
ICE.
    Because the issues are so important, however, we have 
pledged to Congress that we would followup to determine how 
well the Department has progressed since our November 2005 
report.
    We expect to start early this summer.
    Mr. Chairman, members of the subcommittee, that concludes 
my remarks. I will be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Skinner follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.026
    
    [GRAPHIC] [TIFF OMITTED] T9581.027
    
    [GRAPHIC] [TIFF OMITTED] T9581.028
    
    [GRAPHIC] [TIFF OMITTED] T9581.029
    
    [GRAPHIC] [TIFF OMITTED] T9581.030
    
    [GRAPHIC] [TIFF OMITTED] T9581.031
    
    [GRAPHIC] [TIFF OMITTED] T9581.032
    
    [GRAPHIC] [TIFF OMITTED] T9581.033
    
    Mr. Shays. Thank you, Mr. Skinner. Mr. Schoch.

                 STATEMENT OF ROBERT A. SCHOCH

    Mr. Schoch. Chairman Shays and distinguished members of the 
subcommittee, it is an honor for me appear before you today to 
discuss how the men and women of the U.S. Immigration and 
Customs Enforcement [ICE], protect the American people by 
identifying and closing critical border, homeland, and other 
national security vulnerabilities.
    Among the Department of Homeland Security law enforcement 
agencies, ICE has the most expansive investigative authorities 
and the largest force of investigators.
    Our mission is to protect the American people by combating 
terrorists and other criminals who seek to exploit our Nation's 
borders and threaten us here at home.
    By leveraging the full enforcement potential provided by 
our unique unified blend of customs and immigration 
authorities, ICE agents and officers are making it more 
difficult for potential terrorists and transnational criminal 
groups to move themselves, their supporters, or their weapons 
across the Nation's borders through traditional human, drug, 
contraband, or financial smuggling networks, routes and 
methods. As a result, ICE contributes to our national security.
    Protecting national security is at the heart of ICE's work, 
operations, and mission. ICE seeks to identify and close 
vulnerabilities in our immigration and customs system before 
they can be exploited by potential terrorists.
    To illustrate ICE's national security work, I'd like to 
quickly share two representative cases with you.
    First, in January 2006, based on information developed by 
the ICE special agent in charge in San Diego, along with the 
operational alliance tunnel task force, we discovered a highly 
sophisticated cross border tunnel that extended nearly a half 
mile, from a warehouse in Tijuana, Mexico, into a warehouse in 
Otai Mesa, CA. Equipped with lighting, ventilation, cement 
floor, this tunnel was designed to support drug smuggling.
    Substantial criminal proceeds were invested in this tunnel, 
which reached a depth in some areas of 81 feet to avoid 
detection. This tunnel carried significant national security 
implications due to its potential use to support illegal and 
covert entry of persons or weapons into the United States.
    Another example: In June 2004, ICE special agents in New 
Orleans initiated an investigation into smuggling activities by 
passengers and crew members of cruise ships arriving at the 
Port of New Orleans. During the course of the investigation, we 
identified two individuals, Cedric Carpenter and Lamont Ranson, 
U.S. citizens, one a former member of the military, as being 
involved in drug smuggling, distribution activities, as well as 
the manufacture and sale of false documents. Through 
consensually monitored telephone calls, and meetings with ICE 
confidential informants, Carpenter and Ranson actually agreed 
to provide false birth certificates, Social Security cards, 
driver's licenses for individuals they believed to be members 
of Abu Sayyaf, a State Department designated foreign terrorist 
organization with ties to Al Qaeda.
    In addition, Carpenter and Ranson believed that these 
individuals that they were to provide the fraudulent documents 
to were on U.S. watch lists. These traditional criminal 
investigations are a few examples that demonstrate how ICE 
contributes to our national security by identifying and closing 
vulnerabilities that could potentially be exploited by 
terrorists.
    In June 2003, the Office of Investigation launched an 
intensive effort to strengthen existing and, where necessary, 
develop new programs aimed directly at closing the 
vulnerabilities exploited by the September 11th conspirators. 
The 9/11 Commission found in its final report that had the 
immigration system set a higher bar for determining whether 
individuals are who or what they claim to be and ensuring 
routine consequences for violations, it could have excluded, 
removed, or come into further contact with several of the 
hijackers who did not meet the terms of their admitting short-
term visitors.
    Some examples are ICE national security division's 
compliance enforcement unit, which has now processed over 
350,000 leads for review for potential investigations in the 
field for violations in the student violators. The Office of 
Investigations' Benefit Fraud Units work closely in 
coordination with the U.S. Citizenship and Immigration Services 
to protect the integrity of the legal immigration system by 
identifying fraudulent applications, systemic vulnerabilities, 
and fraud trends.
    When applications, fraudulent applications and trends are 
identified, this information is passed to the SAC offices for 
further investigation and prosecution.
    The Office of Investigation created a visa security 
program, which provides critical law enforcement and 
investigative expertise to our consular officers in several 
overseas posts.
    ICE routinely conducts comprehensive threat, vulnerability, 
and consequence risk assessments of the customs and immigration 
systems to determine optimal application of resources.
    In addition to all of our 26 special agent in charge 
offices having conducted their own internal risk assessment, 
threat assessment, headquarters Office of Investigation staff 
has coordinated assessments in a variety of areas to enhance 
our national security.
    Threat assessments relate to financial crimes, identity 
benefit fraud, and the illegal export of arms and strategic 
technology. The results of these assessments are driving and 
shifting investigative resources within the SAC offices, and 
expanding existing certified undercover operations, as well as 
assisting the field offices in identifying new and emerging 
threats and vulnerabilities within their respective areas of 
responsibility.
    These risk assessments serve as a foundation in the 
creation of outcome-based performance goals and measurement 
tools to assess the degree in which ICE is able to fill its 
mission relative to identified threats.
    My colleagues at ICE are grateful for the chance, and I am 
grateful for the chance to serve the American people, and on 
their behalf I thank you for your continued support of our 
ongoing operations.
    I would be pleased to answer any of your questions.
    [The prepared statement of Mr. Schoch follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.034
    
    [GRAPHIC] [TIFF OMITTED] T9581.035
    
    [GRAPHIC] [TIFF OMITTED] T9581.036
    
    [GRAPHIC] [TIFF OMITTED] T9581.037
    
    [GRAPHIC] [TIFF OMITTED] T9581.038
    
    [GRAPHIC] [TIFF OMITTED] T9581.039
    
    [GRAPHIC] [TIFF OMITTED] T9581.040
    
    [GRAPHIC] [TIFF OMITTED] T9581.041
    
    [GRAPHIC] [TIFF OMITTED] T9581.042
    
    [GRAPHIC] [TIFF OMITTED] T9581.043
    
    [GRAPHIC] [TIFF OMITTED] T9581.044
    
    [GRAPHIC] [TIFF OMITTED] T9581.045
    
    [GRAPHIC] [TIFF OMITTED] T9581.046
    
    Mr. Shays. Thank you. I'm going to start by having Mr. Van 
Hollen ask the first questions.
    Mr. Van Hollen. Well, thank you, Mr. Chairman. Thank all of 
you for your testimony this afternoon. Let me begin with Mr. 
Schoch, if I may, because you heard the testimony of the other 
gentlemen. You've seen the GAO report. You've seen the 
criticism that there's been lack of cooperation between, you 
know, Customs and Border Patrol on the one hand and ICE on the 
other, and we all know in this committee under the leadership 
of our chairman, Mr. Shays, has and the 9/11 Commission review 
obviously identified this lack of information sharing as one of 
the problems our country faced leading up to September 11th.
    That was throughout the whole government, and here we have 
reports that say there's not even adequate coordination and 
information sharing between two, you know, agencies within the 
same department that was created after September 11th with the 
express purpose of trying to improve coordination, and so it's 
an alarming report, and analysis, and I would just--I wonder 
No. 1, do you agree with their analysis, and No. 2, if so, what 
recommendations--what steps are you taking to make changes?
    Mr. Schoch. Not necessarily agree with their analysis. Let 
me speak to a few things. I have been leading in the National 
Security Division at ICE within the Office of the 
Investigations. Specifically, my counterparts at CBP in the 
Office of Anti-Terrorism have a number of efforts that we are 
doing to coordinate our operations to make sure that we are, 
you know, absolute harmony.
    One is we staff the National Targeting Center that CPB 
runs, and we actually have ICE agents 24/7 operating there to 
make sure that any identifiable issue that is raised in the 
field all comes through there, and we are able to coordinate.
    We actually have a working group. We meet monthly with my 
counterpart within the Office of Anti-Terrorism. We have 
working groups to look at information sharing. We have come up 
with protocols to deal with threat information and coordinating 
those, you know, systematically, synchronizing what responses 
we have. There are a number of efforts that ICE and CBP 
together are making to try to harmonize our efforts.
    Mr. Van Hollen. Right. Now, were these efforts in place 
before the report done by the GAO and the Inspector General's 
office or do they predate that or are they responses to it?
    Mr. Schoch. A number of their recommendations have been 
looked at, and I know, for example, coordination council are in 
effect, but a number of these things myself we have been doing 
for as long as ICE and CBP have been two separate agencies 
within the Department. So these are ongoing efforts that we 
have been making, and I have personally been involved with.
    Mr. Van Hollen. Well, putting aside the recommendation to 
merge the two agencies, because, as was mentioned, the 
Secretary Chertoff's own reorganization plan may have made that 
particular recommendation moot, although I could still see how 
you could merge the two down the road. I'm not sure, but 
anyway, with the exception of that, are there any of the 
recommendations that have been raised by either of the other 
gentlemen to your right that you do not intend to implement?
    Mr. Schoch. Let me talk specifically about the GAO report 
on our priorities. I think we actually, and I have been a part 
of the number of GAO audits and investigations if you will, and 
we find a lot of value in them, and I think this is the case 
here. Some of their recommendations to look at potentially a 
system, for example, on communicating back vulnerabilities, 
looking at better risk management--more comprehensive, while we 
are doing several threat assessment, risk assessment, they have 
made several findings that we actually looked at and willingly 
are going to be trying to look at some different changes.
    For example, the data that they used to come up with the 
percentages they are using on national security, while we 
respect how they arrived at that, I disagree with the amount of 
resources we are putting, as it almost characterizes it as a 
small percentage when I would argue that everything that ICE 
almost is doing is in an effort to make sure that we do not 
ever relive a September 11th type event.
    So there are a number of great recommendations that we are 
looking at.
    Mr. Van Hollen. Are there any that they have proposed that 
you do not intend to implement?
    Mr. Schoch. I am more familiar with the specificity in the 
GAO. I looked at all of those, and I think we are evaluating 
those, and look at those favorably. In the merger document, I 
am not too familiar. I would have to look at those, and I know 
a lot of those come up to the department level.
    Mr. Van Hollen. OK. Thank you. If our other witnesses could 
just respond to.
    Mr. Stana. Well, I will start, since we talked about the 
GAO report. I think the kinds of things that Bob Schoch 
mentioned are on target. I think you do want to create the 
mechanisms and the cross walks between organizational 
structures so that you can coordinate more closely. I would 
also say at the same time, though, sadly, this is nothing new 
between ICE and CBP. We have been looking at coordination 
issues for years, and I know the legacy INS this was a constant 
problem, even when the people were standing side by side at the 
different booths at the ports of entry. INS would put three 
people out. Customs would say, well, if you are only putting 
three out, I am only putting three out at some ports of entry.
    So this is nothing that is new or that was brought on by 
ICE.
    I would say this about the merger issue, though. Usually 
when organizations have mergers or they move the boxes around 
the organizational tree, it is most successful when it is done 
for one of two reasons: either your strategic plan has changed 
or your mission has been redefined. If you are moving the boxes 
around the organizational tree to handle basic management 
issues, like coordination, lack of guidance, training, 
information systems, financial systems are not working right. 
You are trying to move boxes around to fix management problems 
and that doesn't work.
    In the 1990's, INS did that three times and it got to the 
point where the agents in the field didn't know which guidance 
was operational anymore, because they were constantly 
reorganizing.
    So my suggestion would be if ICE needs anything, it is 
stability for a period of time and leadership and now with 
Julie Myers in charge and we are going to have a new Customs 
Commissioner shortly, there is an excellent opportunity now to 
bring good management and leadership to bear to break down some 
of these coordination problems.
    Mr. Van Hollen. Thank you. Mr. Skinner, do you have any 
response?
    Mr. Skinner. Yes. I could say that the communications with 
the Deputy Secretary and as late as last night, and with Julie 
Myers and people in CBP, they have, in fact, agreed with all. 
We made 14 recommendations. They have agreed with all 14 
recommendations. In many cases, they have claimed that they 
have already completed action on some of these recommendations. 
For example, the creation of a CBP-ICE Coordination Council.
    We haven't had the opportunity to see if, in fact, the 
implementation of the recommendations have had a profound 
impact or the desired result, and that is something we are 
going to do this summer.
    Mr. Van Hollen. Right.
    Mr. Skinner. But as far as agreeing with our 
recommendations and taking actions, yes, they have.
    Mr. Van Hollen. OK. Thank you for your testimony.
    Mr. Shays. Thank you. I am going to thank the gentleman and 
if he wants to interrupt the counsel, the counsel is going to 
be asking some questions, and feel free just to jump in if the 
gentleman would like to.
    Mr. Halloran. Thank you. Good afternoon.
    Mr. Stana. Good afternoon.
    Mr. Halloran. Mr. Stana, in your testimony, you cite as an 
ICE mission to protect national security without diminishing 
the legacy missions. Is that realistic given the diversity of 
that portfolio and is it the same question--is it true to say 
that some or if not all of those legacy missions could consume 
almost all the investigative resources?
    Mr. Stana. You know they have a large number of missions, 
as you know, and it is difficult to spread 5,600 investigators 
across all of those missions and keep everyone happy and all of 
them well staffed.
    But it is like any agency that has fewer people than it has 
missions: You have to pick and choose.
    Mr. Schoch is in charge of the National Security, and that 
is where the 10 to 15 percent of investigative resources that 
go to the most directly linked to national security 
investigations are done. And that is a good thing.
    Now, within that, maybe not all of them have a direct link 
at the end of the day, when the results are in, but at least, 
as far as the subject matter goes, it does seem to comport with 
the overall mission of DHS.
    It is the 85 to 90 percent that are in other areas that I 
would take issue with in some cases the necessity to keep 
pursuing at the same level we are pursuing, given that you have 
finite resources.
    For example, well over half of the total investigative 
cases that OI does are related to Class III drug 
investigations. Class III, these are the least important drug 
investigations. Do we need to do them all? Should they respond 
to every port call that CBP makes to come and investigate some 
sort of a seizure that they make. Perhaps this is part of the 
coordination problem that Mr. Skinner mentioned. They are not 
going to respond to every case. They are going to respond to 
the most important cases, as they should.
    So, I would suggest that there is some room to reallocate 
resources, but not to neglect every mission or any particular 
mission.
    Mr. Halloran. Right. To what extent would you say that 
imbalance you cite is function of structure; that they say at 
over at DOD if all you have is a hammer, everything looks like 
a nail. If your office is next to the port and that is your 
bread and butter business, as long as you are there, isn't that 
what you're going to do?
    Mr. Stana. Well, there is a good deal of that, you know, 
frankly. If what you have done is drug cases in the San Diego 
sector for years and years and years, and you are used to 
calling ICE or its predecessor to come and investigate a case, 
that is what you are going to do. If you have 10 groups in a 
district that has done drug investigations for years, that is 
what you will do.
    What a comprehensive risk assessment and management tool 
would do it would help to break out of the mold of doing what 
you have always done.
    Mr. Halloran. Thank you. Mr. Skinner, could you talk a 
little more about the kind of mutuality of ICE, CBP co-
dependence. Just walk a case through that process where they 
have to hand off as oppose to ones they might pursue 
separately.
    Mr. Skinner. For example, an interdiction at the port of 
entry, and car is pulled over and it could be loaded with 
illegal drugs or likewise--it could even be between ports of 
entry through our Border Patrol. In those cases, historically, 
when INS, for example, and Customs, before the reorganization, 
the inspector would discover the drugs, turn over the--or make 
the referral to the investigator who then would take the case 
and run with it. Often times they may even do it jointly.
    As it stands now, the ICE or the investigators are not 
always being responsive, and it may go back to the fact that 
there is a breakdown in risk assessments. CBP, their priorities 
may be to intercept drugs, whereas ICE now their primary 
mission has been focused elsewhere, so they are not reacting, 
so that is creating some type of frustration between the two 
groups.
    CBP now in turn is out of frustration are taking these 
cases as opposed to giving them to the ICE investigator are now 
giving them to other law enforcement officials, be it the DEA, 
the Drug Enforcement Administration, or the local police or 
State police or whoever is most to take the case or whoever is 
most convenient, and it may not even inform ICE.
    Mr. Halloran. Are there memoranda of understanding between 
ICE and CBP as to how some of that might be handled?
    Mr. Skinner. There are memoranda of understanding, but it 
is not clear as to whether everyone is, in fact, has a full 
understanding of what those mean. They are open to 
interpretation from port to port to port, and our review found 
out there was extreme frustration, particularly coming from the 
CBP side that ICE was not being reactive or responsive to their 
investigative needs. So now, they have gone to other law 
enforcement agencies.
    As a matter of fact, they have actually----
    Mr. Halloran. Or doing it themselves?
    Mr. Skinner. Now, they have started a pilot program where 
they are going to be doing it themselves. This can create 
problems, because we are not bringing a synergy to the efforts 
here. If we are looking at national security issues, and if we 
are breaking it down into stovepipes, we are not able to and 
collectively see if there is some type of systemic or trend in 
drug trafficking or human trafficking that which, in fact, 
could be supporting a terrorist activity. And by not 
cooperating in this regard, I think is the danger that we face; 
that we are losing the synergy that could exist here.
    Mr. Halloran. So, Mr. Schoch, is the Coordinating Council 
enough? How is that going to break through the kind of cultural 
barriers that Mr. Skinner just described?
    Mr. Schoch. I think it is a start first of all. Second, 
there is clear guidance that is out there to all of our 
employees about response to the ports and about calls from CBP. 
For example, I actually put out, and I authored and it was put 
out by a director, a requirement of 100 percent response to 
every request from Customs, Border Protection on a watch list 
hit. Any person entering the United States that hits the watch 
list comes into a name match, if you will, an ICE agent is 
mandatory 100 percent response to that. There is clear guidance 
on that. We respond 100 percent on those, and we invest a lot 
of man hours into that function, because we fill, you know, the 
significance of that.
    Within responses to the drug investigations or a drug 
interdiction, those investigations often start with the 
interdiction and a cultivation possibly of a person that was 
arrested, information they may have, phone numbers they may 
have. There is a lot of benefit to those responses, and I don't 
know the specific guidance that is out, but there is clear 
guidance between both the OFO, the Office of Field Operations, 
which affects the inspectors, and then the Office of Border 
Patrol. So there is guidance out there, and issues that may 
come up, come up through our SACs, come up to the programs--we 
have an entire program on contraband smuggling that deals with 
the drug enforcement at ICE headquarters responsible for that.
    Mr. Halloran. How old is that 100 percent watch list?
    Mr. Schoch. I would say it goes back over 2 years I 
believe.
    Mr. Halloran. That is my point again. Since our hearing on 
visa revocations, which I think was May or April 2004, since 
then?
    Mr. Schoch. It is--I would----
    Mr. Halloran. The question is would it capture a visa 
revocation action at this point almost automatically?
    Mr. Schoch. Yes.
    Mr. Halloran. OK. Finally, let me ask Mr. Schoch again, the 
apparent conflict between the decentralized nature of your 
operations that your offices are out in the field. You've got a 
special agent in charge that can drive the investigative 
priorities, and then you have these headquarters initiatives. 
Your testimony mentioned the workplace inspection priority for 
critical infrastructure sites, so-called.
    Did that come out of your office and was there resistance 
in the field to that or how was that rolled out?
    Mr. Schoch. Actually, it is more of a collaboration between 
the field offices, the 26 SAC offices, and headquarters. A 
threat assessment was done actually in 2004, and the SAC 
offices themselves identified critical infrastructure 
protection as a vulnerability that needed to be addressed. Then 
the office at headquarters, working with that information, was 
able to shape policy and basically have a uniformity to that 
and put that guidance out to the field. There is guidance that 
says that we look at national security and we look at public 
safety as the two utmost priorities in that program, and 
examples of cases where we've had individuals with fraudulent 
documents trying to get into White Sands Missile Base; people 
that were translators actually working at Fort Bragg, NC, 
actually teaching, you know, our special forces. Those are 
cases that, while they were not included in the GAO study as 
national security, we find threats, significant threats to our 
national security, and hundreds of cases in 2005 were conducted 
in these areas.
    That is a uniform policy across the board.
    Mr. Halloran. So finally, the threat assessment you 
referenced in that regard is that written, a single document 
that we might get?
    Mr. Schoch. It was conducted in 2004. I would be happy to 
provide you with that.
    Mr. Halloran. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.047
    
    [GRAPHIC] [TIFF OMITTED] T9581.048
    
    [GRAPHIC] [TIFF OMITTED] T9581.049
    
    [GRAPHIC] [TIFF OMITTED] T9581.050
    
    [GRAPHIC] [TIFF OMITTED] T9581.051
    
    Mr. Shays. Mr. Schoch, how many employees do you have?
    Mr. Schoch. ICE has 5,600.
    Mr. Shays. Right. And they are located in how many places?
    Mr. Schoch. We have 26 field offices.
    Mr. Shays. When we combined this office into one, did we 
maintain the same number of employees and just give them to the 
agency or did we weed out a number along the way? In other 
words, when we put A and B together, do you have the same 
number?
    Mr. Schoch. I would say within, you know, maybe 100 or plus 
or minus, there's generally about the same number.
    Mr. Shays. You know when you read about what have been the 
legacy, the drugs, financial dealings, general immigration, 
smuggling, human trafficking, document fraud, worksite 
enforcement, I look at that and I say that is pretty serious 
stuff, so logically you don't want to give up on them. But I am 
wrestling with why it has to take a long time to begin to break 
out of this legacy and begin to think anew and act anew. That 
is what I am wrestling with, and so explain to me why that is a 
challenge. Is it old cases that stay on the books? Weren't you 
able and aren't you able to just simply say, you know, we are 
going to devote more time in this way, and is it that they 
don't have proper schooling? What is it?
    Mr. Schoch. Do you mean toward national security types?
    Mr. Shays. Absolutely. That is what I mean.
    Mr. Schoch. I think because, and while we appreciate the 
GAO study, we take exception to some of their findings, again, 
critical infrastructure type cases were not included in that 10 
to 15 percent number that they arrived at. The case on the 
tunnel, for example----
    Mr. Shays. But basically, both the Inspector General and 
GAO pretty much come to the same conclusion; agreed?
    Mr. Schoch. I don't know if they reached the same 
conclusion on our focus on national security.
    Mr. Shays. Well, why don't we have them to explain?
    Mr. Stana. Well, I would start off by saying we stand by 
the number. In fact, there was a survey done of actual ICE 
investigators on how many of their cases actually involved a 
national security nexus, and we could argue about how well the 
survey was done, but the fact is that the agents themselves 
characterized it as far less than 10 to 15 percent.
    Mr. Shays. OK.
    Mr. Stana. So we can play with that----
    Mr. Shays. So you felt you were being generous?
    Mr. Stana. No, I think what we used information that on was 
text, and we made a point at one time that it was far lower, 
but at the end we weren't really satisfied with the 
methodological rigor that was used to survey the agents or the 
investigators themselves, so we will, for the sake of 
discussion, we will say it is 10 to 15 percent, but just know 
that counts what--how you characterize a case, not necessarily 
case results.
    Mr. Shays. OK. And by case results, you mean what?
    Mr. Stana. Well, I mean if you start off an investigation 
based on a tip that something may involve a terror 
organization, and you get into it and you find out no, it is 
something less than that. It still may be categorized for the 
purposes of the management system as having a nexus to national 
security, but at the end of the day, it really does not. I'm 
not saying that is all of their caseload, but it is a 
substantial amount of their caseload.
    Mr. Shays. Mr. Skinner, how do you and Mr. Stana disagree 
or do you disagree on your analysis? Where would you be 
different?
    Mr. Skinner. Well, I can't say we disagree, because we 
didn't do an analysis per se of how much time was being spent 
on national security or terrorist activities versus the more 
traditional interdiction----
    Mr. Shays. Right.
    Mr. Skinner [continuing]. Activities. However, during the 
course of our review, in our interviews with over 600 
individuals out the field, we did learn that the ICE is a big 
participant in the Joint Federal Terrorist Task Force. As a 
matter of fact, throughout the country, they participate on 
this. But there was also a degree of frustration and that is 
why invest so much of our time and resources in a terrorist 
investigation when in the long run, it is going to be turned 
over to the FBI. So there is this institutional competition 
that exists as to who has primacy for these investigations. I 
know there was frustration voiced in our interviews with many 
of these agents out there that they were not inclined to get 
real excited about these cases, knowing that if they invest any 
time in these cases, they are going to be turned over to the 
FBI.
    At the same time, those that we interviewed were very 
enthusiastic about the terrorist task force that exists across 
the country, and ICE participates very, very--or a major player 
in all those task forces as well as other law enforcement 
agencies.
    Mr. Shays. What logically do all three of you think it 
takes an organization like the Department of Homeland Security 
to try to benefit from the synergies that occur when you bring 
disparate groups that have a lot of commonality, but were in 
different agencies and now they are together? I sometimes feel 
like we are criticizing DHS without really being certain that 
we are accurate. I mean are you generally in your other work 
seeing some benefit to this bringing together into this agency, 
admittedly 180,000 people?
    And, if so, would you say that ICE is ahead of schedule 
compared to others or behind, not schedule, is behind others in 
beginning to benefit from the creation of this new office? I 
mean we created a lot of new offices. We brought a lot of 
people together. Is ICE ahead of the curve or behind? Are they 
ahead of most? Are they behind most? Are they somewhere in the 
middle? How would you describe it?
    Mr. Stana. I will start with me. I would say there was a 
benefit to bringing the groups together, if for no other reason 
than it provided a focus and a nexus for investigations on 
national security and terrorism, and I think there is a value 
there that you don't see everyday, but the kinds of cases that 
Bob Schoch talks about in his prepared statement underscore the 
benefit of bringing them together.
    Second, I would say with respect to ICE, of all the 
components of DHS that I have been----
    Mr. Shays. Right.
    Mr. Stana [continuing]. Examining, I think they had the 
longest way to go. If you look at CBP, they have put together 
two units that had basically a similar function or a function 
that meshed a little bit better. The Coast Guard came over, you 
know, in one piece. Secret Service came over in one piece. FPS 
came over. ICE came together where they had to spend an awful 
lot of time merging disparate cultures and functions. Even the 
agents themselves weren't even graded the same, so you had to 
get over lots of personnel issues, management information 
issues, and I think for the first couple or 3 years, they paid 
a price for that.
    Like I said earlier, I think the best thing we can do right 
now is let the agency mature; let it stabilize. It has new 
leadership. Hopefully, it will be strong leadership to take 
care of the kinds of management problems we have talked about.
    Are they on schedule? Probably. Most people think that it 
takes 5 to 7 years, and the kinds of coordination mechanisms 
that Bob mentioned are a step in the right direction. We think 
with more emphasis on identifying the vulnerabilities they 
ought to be addressing, they would be in much better shape.
    Mr. Shays. Great. Thank you. Mr. Skinner.
    Mr. Skinner. I tend to agree with Mr. Stana. For one thing, 
I think the synergy that is brought to the table by forming the 
Department of Homeland Security and the ICE and CBP can have a 
tremendous impact on our ability to attack terrorism as well as 
our legacy activities. But I think we are nowhere near where we 
should be. I agree that CBP came out of the chute a lot faster. 
They were better organized. They implemented a one face at the 
border, and they had the funding to support their activities; 
whereas, ICE started in the hole. They immediately had budget 
problems, accounting problems, and they had severe cultural 
problems, those that were the investigative people as we 
alluded to earlier are accustomed to investigating human 
trafficking. They don't want to do anything else--versus those 
that are accustomed to investigating narcotics trafficking. It 
is very hard to break them out of that mold to do other things. 
They have a long way to go.
    Are they where they should be? That is hard to tell. Again, 
I think they started in the hole----
    Mr. Shays. No, basically, they are not where they should 
be, but you think they are getting there.
    Mr. Skinner. Yes, I do.
    Mr. Shays. OK. Mr. Schoch, would you have any comments on 
anything we have----
    Mr. Schoch. I would, sir. I think I would look at the 
benefits, and having one border security investigative agency I 
think is the biggest benefit that I have seen, having been a 
member of INS for 13 years. And the financial expertise, in 
particular, the former Customs had used for years to combat, 
you know, drug cartels, that now and almost immediately was 
applied to the legacy INS type human trafficking, human 
smuggling, organizations, identity benefit fraud. We are not 
just going out and arresting the person. We are looking at 
their assets and really hurting them in the pocketbook, where 
the financial criminal gain is at.
    Also, what was mentioned is we weren't co-located different 
disparate grades, and the budget. I think a lot of those things 
are beginning to come together and I think I personally believe 
that we are heading in the right direction as an agency, with 
new leadership and so forth.
    Mr. Shays. Thank you, Mr. Schoch. Mr. Van Hollen, do you 
have any last questions? As much as time as you want.
    Mr. Van Hollen. Thank you, Mr. Chairman. Yes, I have a 
question for Mr. Schoch regarding the extent to which ICE is 
using its authority in terms of admitting people to the country 
to exclude individuals because they may espouse political 
positions that the administration does not like. We are going 
to have testimony a little later from a representative from the 
ACLU and unfortunately I have another meeting, so I am not 
going to be able to hear that. But I would like to get your 
response to that. I understand that as part of the Patriot Act, 
in 2001, the Congress included a provision that allows people 
to be excluded if they have essentially been encouraging people 
to support terrorist activities overseas. I understand that is 
the provision in the law. But I do want to focus on a 
particular case which they raise in their testimony of 
Professor Ramadan and ask you specifically on what grounds, on 
what basis, specifically, did you exclude him from coming to 
the country?
    Mr. Schoch. Well, first of all, let me just try to clarify 
a couple things. The Customs and Border Protection makes 
determinations on admissibility. Their inspectors are on the 
front line making those determinations of whether or not 
somebody has the lawful right to be admitted into the United 
States. The Ramadan case in particular is being litigated now 
at the Department level I believe, and I am not at liberty to 
even discuss that. Any ICE investigation that we conduct, and 
Mr. Skinner pointed this out, we have actually the largest 
number of ICE agents, of agents, that contribute out of any 
Federal agency to the Joint Terrorism Task Force. We have 
almost 250 ICE agents on the Joint Terrorism Task Force. That 
is only second to the FBI. Any investigation that we come into 
that is open, where we believe there is any type of a threat to 
our national security--terrorism and so forth--potential 
individuals can get on watch lists; and, therefore, that watch 
list could trigger some type of an admissibility issue.
    But as far as Ramadan, I can't with specificity, I cannot 
speak on that, because that is at the Department level as well 
as CPB makes those determinations on admissibility into the 
United States.
    Mr. Van Hollen. All right. Apart from being placed on a 
watch list, and as I understand your testimony, you can't 
comment today as to whether or not he was on a watch list; is 
that correct?
    Mr. Schoch. That is right.
    Mr. Van Hollen. OK. But apart, just, you know, 
theoretically, apart from someone being placed on a watch list, 
is it the policy of ICE to deny anyone entry in the country 
based on their expression of political views other than someone 
who may have, you know, espoused terrorism?
    Mr. Schoch. I think any of the decisions that are made in 
any of those areas are coordinated with our council and those 
again, the final admissibility decisions are made by Customs 
and Border Protection. ICE doesn't make determinations of 
admissibility, you know because the investigators are not, you 
know, at the front line as the inspectors are making those 
determinations.
    Mr. Van Hollen. All right. So that is in the other----
    Mr. Schoch. That is correct.
    Mr. Van Hollen [continuing]. Agency that we have been 
talking about today.
    Mr. Schoch. Right.
    Mr. Van Hollen. Right. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, and we are going to just have counsel 
ask one more line of questions, and then we are going to get to 
our next panel.
    Mr. Halloran. Yes. If you could talk a little more about 
the active versus passive way in which ICE determines the 
national security nexus, the kind of the definitional issue 
that you disagree with GAO about a little bit. So the question 
might be better put how do you move from the case-by-case or 
line of business analysis of national security to a more 
comprehensive assessment of vulnerabilities that you need to 
address by proactively applying resources to them.
    I mean you were going to mention before the tunnel case, 
and its national security implications. But nothing in your 
testimony says you had information at hand that says it was a 
national security threat; it was a drug route primarily; is 
that correct?
    Mr. Schoch. Right.
    Mr. Halloran. And so you kind of take credit for the 
weather there, and say that it could have been used for 
national security. So how do you move from kind of a what I 
think you would have to agree is in some respects a reactive 
posture to finding national security implications in cases, 
actually focusing resources on what does have a national 
security threat?
    Mr. Schoch. I will give you an example specifically 
proactive. I manage the Arms and Strategic Technology Unit, ICE 
has the broadest export authority of any Federal agency, of any 
law enforcement agency. We look at violations of technology, 
very technical technology leaving this country that has to have 
an export license, by Commerce, for example, and also our 
military equipment--generation three night vision, for example 
or F-14 parts. We conducted in the fall of this year, we began 
and initiated a comprehensive--through all the 26 SAC offices a 
threat assessment to identify the resources that we are putting 
toward that program in the field, the threat that the SAC 
offices each felt that what were the threats, what were the 
vulnerabilities, and again very similar to how I mentioned the 
worksite was done, we worked in collaboration with the field 
offices and now, as a result, we have created different 
adjustments in resources in certain SAC offices as the result 
of that. More resources had to be put toward those 
investigations, as well as now we are driving national 
initiatives in certain areas as a result of that threat 
assessment. Very proactive, driven by headquarters, and that 
again, just to kind of exemplify some of the things that we are 
doing.
    Mr. Halloran. Thank you.
    Mr. Shays. Is there anything we need to put on the record 
before we go to our next panel? Is there any question you wish 
or happy we didn't ask that I would like you to ask? Nothing? 
OK, gentlemen. Thank you very, very much.
    Mr. Shays. Our second and last panel is Dr. Joseph Ryan, 
Chair and professor of criminal justice and sociology at Pace 
University; as well as Ms. Caroline Fredrickson, director, 
ACLU, Washington Legislative Office; and Mr. Joseph Webber, 
Special Agent in Charge, Retired, Bureau of Immigration and 
Customs Enforcement, U.S. Department of Homeland Security.
    By the way, I have my jacket off. If you gentlemen would 
like to take your jacket off as there is no TV here, we can 
relax a little bit. If you would like your coat off, feel free; 
your jacket off, you are more than welcome to. Ma'am, as well.
    [Witnesses sworn.]
    Mr. Shays. Note for the record, our witnesses have 
responded in the affirmative, and we will start with you, Dr. 
Ryan, and thank you all three of you for being here.

STATEMENTS OF JOSEPH F. RYAN, PH.D., CHAIRPERSON, DEPARTMENT OF 
   CRIMINAL JUSTICE AND SOCIOLOGY, PACE UNIVERSITY; CAROLINE 
FREDRICKSON, DIRECTOR, WASHINGTON LEGISLATIVE OFFICE, AMERICAN 
 CIVIL LIBERTIES UNION; AND JOSEPH R. WEBBER, SPECIAL AGENT IN 
      CHARGE (RETIRED), BUREAU OF IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

                  STATEMENT OF JOSEPH F. RYAN

    Dr. Ryan. Chairman Shays and members of the subcommittee, 
thank you for inviting me to testify.
    In your invitation you asked me to provide my expertise on 
the application of risk management and outcome-based 
performance monitoring strategies that will permit the Bureau 
Immigration and Customs Enforcement resources to be used 
effectively in the interest of national security.
    You also asked that I offer recommendations specific to 
ICE. Since I was not given access to the GAO report, my 
recommendations are not necessarily specific to ICE or can 
apply to any government agency.
    In terms of identifying risk, the definition that I prefer 
is one used by financial managers: Risk is a chance that 
something will occur, come out worse than planned. In reality, 
police assume the same in terms of risk. They know and plan 
that crime will occur and hope that the worst does not occur. 
Unfortunately, the worst crime did occur on September 11, 2001.
    One of the best ways you can conduct risk assessment is to 
follow Yogi Bera's maxim: You can observe a lot by watching. 
Yes, it can be that simple, but unfortunately in the public 
sector, you encounter difficulties. Risk management becomes 
difficult when there is no consensus----
    Mr. Shays. Did Yogi ever say that, really?
    Dr. Ryan. Yes.
    Mr. Shays. He is brilliant----
    Dr. Ryan. I did research it.
    Mr. Shays. He is brilliant. The guy is brilliant. There are 
too many.
    Dr. Ryan. Wonderful practice. Risk management becomes 
difficult when there is no consensus as to what you are trying 
to achieve or how you are going to manage the risk you 
identify. A major component in developing effective risk 
assessment requires leadership that recognizes the need for 
bringing all stakeholders together to jointly assess risk. At 
times, risk management requires making tough decisions. 
Inherent in public decisionmaking is that you cannot please all 
the people all of the time.
    For example, the New York Times recently provided insight 
as to how the New York City Police Department claimed it was 
successful in managing large demonstrations that cause 
significant damage in other cities.
    Unfortunately, some of these strategies have been 
criticized for inhibiting freedom of speech.
    Intricately related to risk management is outcome-based 
performance monitoring. It is one of the tools that can be used 
to help you know if you have accomplished what you want to 
achieve. Outcome-based performance monitoring is, in reality, 
performance measurement. It involves measurement on a regular 
basis of the results and efficiency of services or programs. It 
also includes using results to make improvements in the 
organization and in the way it delivers its services.
    Performance management is quite simple. The real challenge 
lies in data collection and analysis, which, in law 
enforcement, has been notoriously poor. Data collection in law 
enforcement is possible. New York City's COMSTAT effort is just 
one example. Key in this strategy is timely and accurate crime 
reporting.
    COMSTAT involves meeting with commanders who are expected 
to be aware of local crime conditions, and to explain what they 
are doing to address them. If you use performance measures 
effectively, you can manage for results and improve the 
services that the organization provides and the morale of all 
involved.
    One of the first problems encountered with productivity 
measures is that no one likes to be assessed. It is no longer 
an issue of whether performance measures should be conducted. 
Citizens expect results.
    One of the most important strategies that a leader needs 
upon assuming a command position is define the agency's vision 
and mission statements. This statement tells you what the 
organization hopes to accomplish and where it should be 
heading. The key to overcoming resistance and effecting change 
is found in an agency's vision and mission statement. It is 
important to gauge the people most likely to be affected; that 
is, the ones who are already involved and who have the most at 
stake in getting the job done right.
    You have to seek their advice and give them the power to 
fix what they, more than anyone else, know needs fixing.
    When reframing an organization to achieve an agency's 
vision and mission, a leader needs to take a holistic view of 
all the issues that relate to the organization and implement 
changes that will move the agency forward.
    September 11th changed the way law enforcement needs to 
operate. We are in a time of crisis and uncertainty. Leadership 
at this time in ICE is imperative.
    In conclusion, I would like to offer the following five 
recommendations that I believe will help ICE effectively deploy 
its resources to enhance national security:
    ICE should develop a vision and mission statement for their 
agency. It is important that key stakeholders be involved in 
determining what they should be accomplishing and how it should 
be accomplished. The vision and mission statements should be 
shared with all within ICE and training should be developed 
that will provide guidance on how the goals will be achieved. 
Once a consensus is developed for ICE's vision and mission 
statement, key stakeholders within ICE should begin to assess 
the risk they face.
    An outcome-based performance monitoring system should be 
developed that parallels the vision and mission statement in an 
effort to ensure that ICE is achieving its agreed upon goals.
    Last, ICE should identify key data elements that can be 
used as part of its outcome-based performance monitoring 
strategies, which can be used to improve the resources needed 
to enhance the national security. Thank you, and I am available 
for your questions.
    [The prepared statement of Dr. Ryan follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.052
    
    [GRAPHIC] [TIFF OMITTED] T9581.053
    
    [GRAPHIC] [TIFF OMITTED] T9581.054
    
    [GRAPHIC] [TIFF OMITTED] T9581.055
    
    [GRAPHIC] [TIFF OMITTED] T9581.056
    
    [GRAPHIC] [TIFF OMITTED] T9581.057
    
    [GRAPHIC] [TIFF OMITTED] T9581.058
    
    [GRAPHIC] [TIFF OMITTED] T9581.059
    
    [GRAPHIC] [TIFF OMITTED] T9581.060
    
    [GRAPHIC] [TIFF OMITTED] T9581.061
    
    [GRAPHIC] [TIFF OMITTED] T9581.062
    
    [GRAPHIC] [TIFF OMITTED] T9581.063
    
    [GRAPHIC] [TIFF OMITTED] T9581.064
    
    [GRAPHIC] [TIFF OMITTED] T9581.065
    
    [GRAPHIC] [TIFF OMITTED] T9581.066
    
    [GRAPHIC] [TIFF OMITTED] T9581.067
    
    [GRAPHIC] [TIFF OMITTED] T9581.068
    
    [GRAPHIC] [TIFF OMITTED] T9581.069
    
    [GRAPHIC] [TIFF OMITTED] T9581.070
    
    [GRAPHIC] [TIFF OMITTED] T9581.071
    
    [GRAPHIC] [TIFF OMITTED] T9581.072
    
    [GRAPHIC] [TIFF OMITTED] T9581.073
    
    Mr. Shays. Thank you, Dr. Ryan. Ms. Fredrickson.

               STATEMENT OF CAROLINE FREDRICKSON

    Ms. Fredrickson. Chairman Shays, distinguished members of 
the subcommittee, on behalf of the American Civil Liberties 
Union, I am very pleased to appear before you today.
    The Department of Homeland Security's Bureau of Immigration 
and Customs Enforcement and the State Department have 
resurrected the discredited practice of ideological exclusion, 
the practice of denying visas to non-citizens whose politics 
the government dislikes.
    I respectfully submit to this subcommittee that attempting 
to suppress constitutionally guaranteed freedom of speech and 
freedom of association is not an effective use of ICE 
resources. It is not in the best interest of our national 
security and tramples Americans' first amendment rights.
    We believe it is contrary to fundamental American values 
regarding freedom of expression as protected by the first 
amendment of the Constitution for the administration to 
suppress the exchange of ideas between Americans and people of 
different national origins and dissenting beliefs simply 
because they are different.
    Ideological exclusion is a term of art, but its impact is 
real. The Federal Government is excluding people to prevent 
American citizens and residents from participating in 
conferences or exchanges of ideas with people whose ideas the 
administration finds distasteful.
    By regulating, stigmatizing, and suppressing lawful speech, 
the provision skews and impoverishes academic and political 
debate inside the United States. It creates artificial 
barriers. It deprives Americans of information the need to make 
responsible and informed decisions about matters of political 
importance.
    In particular, I would like to draw the subcommittee's 
attention to the Federal Government's exclusion of Dr. Tariq 
Ramadan, a Swiss citizen and arguably the most the prominent 
and respected European scholar of the Muslim World.
    The Bush administration's decision to exclude Professor 
Ramadan stifles intellectual exchange about Islam and the 
Muslim World precisely at a time when robust dialog and debate 
about America's international policies and commitment to 
freedom and peace are of extraordinary importance to our 
Nation's future.
    Ramadan, has ostensibly, but wrongly, been excluded under a 
provision passed in 2001 through the Patriot Act. The provision 
added to the list of aliens ineligible to receive visas those 
who have used their ``position of prominence within any country 
to persuade others to support terrorist activity or a terrorist 
organization in a way that the Secretary of State has 
determined undermines the United States' efforts to reduce or 
eliminate terrorist activities.''
    The ideological exclusion provision now renders 
inadmissible any alien who has ``endorsed or espoused terrorist 
activity or persuaded others to endorse or espouse terrorist 
activity or support a terrorist organization.''
    While this provision is theoretically directed at those who 
support terrorism, news reports suggest that the government has 
invoked the provision to exclude and stigmatize prominent 
critics of U.S. foreign policy.
    The government revoked Professor Ramadan's non-immigrant 
visa in August 2004 under the ideological exclusion provision, 
preventing him from becoming a tenured professor at the 
University of Notre Dame.
    Until recently, Professor Ramadan lawfully visited the 
United States to lecture, attend conferences, and meet with 
other scholars. The ACLU recently filed litigation challenging 
his exclusion and the provision itself.
    The lawsuit was filed on behalf of the American Association 
of University Professors, the American Academy of Religion, and 
the Pen American Center.
    Professor Ramadan has published more than 20 books and over 
700 articles on democracy, human rights, and Islam. After 
September 11th, he publicly condemned the attacks, telling 
fellow Muslims, ``now more than ever we need to criticize some 
of our brothers and say, you are unjustified if you use the 
Koran to justify murder.''
    While he has been critical of some U.S. policies, he has 
never endorsed, espoused, or persuaded others to support 
terrorism. He has been a consistent and vocal critic of both 
terrorism and those who use it.
    While we await a ruling from the U.S. District Court in 
Professor Ramadan's case, we are pursuing a Freedom of 
Information Act request to learn more about the 
administration's use of this provision to deny admission to 
other scholars.
    We believe the State Department and other government 
agencies are illegally withholding records concerning the 
practice of excluding foreign scholars and other prominent 
intellectuals from the United States because of their political 
views.
    In November 2005, the ACLU filed a lawsuit to enforce our 
FOIA request, and the case is pending, and the ACLU has only 
received some of the documents it has requested.
    It is a fundamental tenet of our society that protecting 
free expression of ideas outweighs any theoretical benefit of 
censorship. The Supreme Court has affirmed the fundamental 
right of Americans to receive ideas. As the court wrote in 
1972, ``it is the purpose of the First Amendment to preserve an 
uninhibited marketplace of ideas in which truth will ultimately 
prevail. It is the right of the public to receive suitable 
access to social, political, aesthetic, moral, and other ideas 
and experiences. That right may not be constitutionally 
abridged.''
    The suppression of speech on the basis of its content is 
not made consistent with American values simply because the 
government is using immigration law rather than some other 
mechanism as the instrument of censorship. To the contrary, 
every court to confront the issue squarely has held that the 
content of a visitor's speech cannot by itself supply a 
legitimate and bona fide reason for exclusion.
    The reinstatement of the practice of excluding people from 
our shores because they are exercising their freedom of 
conscience is much too reminiscent of the McCarthy era, when 
thousands of Americans and immigrants were black listed.
    It is our view that America's precious anti-terrorism 
resources should be focused on preventing another attack, not 
on arbitrarily excluding people who pose no threat to our 
government or people and actually can do so much to enrich our 
intellectual and cultural life.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Fredrickson follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.074
    
    [GRAPHIC] [TIFF OMITTED] T9581.075
    
    [GRAPHIC] [TIFF OMITTED] T9581.076
    
    [GRAPHIC] [TIFF OMITTED] T9581.077
    
    [GRAPHIC] [TIFF OMITTED] T9581.078
    
    [GRAPHIC] [TIFF OMITTED] T9581.079
    
    [GRAPHIC] [TIFF OMITTED] T9581.080
    
    Mr. Shays. Thank you very, very much. Thank you, and we 
will now go to Mr. Weber.

                 STATEMENT OF JOSEPH R. WEBBER

    Mr. Webber. Mr. Chairman, thank you very much for the 
opportunity to be here today to discuss the investigative 
priorities of Immigration and Customs Enforcement [ICE]. I 
retired from the agency as the Special Agent in charge in 
Houston in September of last year, after 32 years of service 
and I appreciate that opportunity to serve.
    I still have a fondness for the agency, a pride in its 
mission, and most respect for the employees. I also have a 
continued interest in homeland security issues, as I was in New 
York City on September 11th. The U.S. Customs House was 
approximately 30 feet north of the North Tower of the World 
Trade Center. I was entrapped in Building 7 of World Trade 
Center and evacuated by the New York City Fire Department, and, 
but for their assistance, I would not be here today.
    So I have a very special motivation when it comes to 
homeland security. It is something that at times I think is 
still taken not seriously.
    But it is indeed an honor to be here today to be heard and 
hopefully in some small way have an impact on the future of 
ICE.
    With the reorganization of government and the creation of 
the Department of Homeland Security, ICE was formed in March 
2003, presumably for the purpose of pursuing violations of our 
Nation's immigration and customs laws.
    However, from the onset, the agency was embroiled in 
controversy. Some of the difficulties that ICE encountered are 
not unique and not without precedent. One only has to look to 
the private sector and observe the problems encountered in 
mergers and acquisitions. Many mergers and acquisitions fail. 
Productivity suffers, as employees try to re-acclimate to the 
new environment, see new ways of doing business.
    Many employees focus on what the reorganization means to 
them personally and where they fit in the new organization.
    In addition to the normal stressors associated with a 
reorganization, ICE faced a significant budget shortfall, and, 
in my opinion, a lack of direction.
    Consequently, there were no funds to offset the 
difficulties encountered with the reorganization. There were 
insufficient funds for things like cross training. There were 
insufficient funds for co-location of personnel, travel, fuel 
for vehicles. And most importantly, there was a hiring freeze.
    Unfortunately, some of the events that were reported in the 
media were true. Vehicles were parked. Copy machines were 
picked up, as the bills were not paid. And there was a lack of 
accountability in virtually all administrative systems.
    Special agents in charge received a stipend budget on a 
quarterly basis, not knowing if additional funds would be 
received. Not only were there difficulties encountered 
identifying investigative priorities, it was difficult to 
establish spending priorities due to the budget shortfall.
    In an ideal environment, managers ensure that the budget is 
appropriately matched to its priorities. We were falling short 
on both counts.
    As if these hurdles were not obstacles enough, the agency 
was continually bashed in the press. In order to establish its 
new identity, the agency attempted to change its name. These 
attempts were blocked by the FBI, and it resulted in badges and 
credentials not being issued for a period of over 2 years.
    And even, as we heard today, the continued existence of the 
agency was questioned, as DHS, as we heard earlier today, 
conducted a study as to whether to move the ICE back into CBP.
    Some of this may seem unimportant to some, but when 
attempting to establish a new agency, a new identity, a new 
culture, it is of a critical importance to convey to all 
employees the agency mission, priorities, and vision. Combined, 
these stressors have taken their toll on ICE's most valued 
resource, the employees and their morale.
    As indicated earlier, mergers and acquisitions are 
difficult to manage under the best of circumstances. Needless 
to say, these were not the best circumstances. However, sir, I 
am proud to report to the subcommittee that the ICE employees 
continue to do a remarkable job, pursue significant cases, and 
perfect significant cases, and we must not overlook the 
administrative staffs who have done a remarkable job with 
antiquated administrative support systems.
    It was a rather long introduction, but I think it is 
important before we go to the priorities of the organization to 
kind of understand some of the turmoil that we were going 
through when ICE was established.
    In government service, as in the public sector, there are 
never----
    Mr. Shays. To be clear, how much more do you have in your 
statement?
    Mr. Webber. I am sorry, sir.
    Mr. Shays. No. Just tell me what you have in your 
statement?
    Mr. Webber. I will try to shorten it.
    Mr. Shays. Yes. You should shorten it, but do those key 
points.
    Mr. Webber. I will. OK.
    ICE, as we have heard earlier, ICE's jurisdictional 
authority can be very broad in that it could essentially 
anything that crosses the border illegally, be it merchandise 
or people can be subject to investigation by ICE.
    When ICE was formed, the exercise of addressing the 
agency's priorities never took place. At the second Special 
Agent in Charge [SAC], Conference in Philadelphia, ICE 
specifically asked the Assistant Secretary that we dispense 
with the planned agenda and go immediately to a discussion 
relating to the agency's mission and the agency's priorities. 
And the response from the Assistant Secretary was, what is it 
you need, Joe? A PowerPoint? All the discussion relative to the 
establishment of a mission statement or priorities was quashed. 
There was no further discussion.
    Mr. Shays. Wow.
    Mr. Webber. Similar things had happened along that line. In 
one instance, the Deputy Assistant Secretary openly criticized 
the Legacy Customs managers indicating they had spent too much 
time on drug cases. Of course, when pressed for what is the new 
number, what is the appropriate amount of time to spend on drug 
cases and also where to reinvest the energy, there were no 
answers.
    There were no priorities established.
    As we heard earlier, I believe it is very easy to establish 
priorities within ICE. It calls for some tough decisions. Some 
poor initiatives need to come off the table. They have an 
excellent case management system, where you can put a priority 
on a case category and then track how much effort is actually 
being put into it. And obviously anything that impacts the 
safety of our citizens should be considered a class one case. 
And all managers should be held accountable that is where their 
time is invested.
    A very good example of how ICE's resources could be saved 
is there is a program, Institutional Removal Program, where 
essentially illegal aliens that are prison are identified and 
deported after completing their sentences. I am not arguing 
against the initiative at all. It is something that definitely 
should continue. However, it is not an investigator's job. It 
needs to be transferred to the Office of Detention and Removal. 
There is a separate office within ICE, Detention and Removal, 
whose function is to detain and remove aliens, but yet we have 
agents doing that function. About 10 percent of ICE's 
investigative resources are performing this function.
    Again, I will attempt to shorten it. The other issue, sir, 
that I would like to leave with you is that of jurisdiction. 
And there have been turf battles, both within the Department 
and outside the Department. The interactions between CBP and 
ICE, be it the Border Patrol or Inspections, have been reduced 
to the establishment of working groups; working out MOUs 
between themselves versus leadership and policy coming from the 
Department or from the heads of the agencies.
    I was involved in an incident in Houston where we were 
working a financial terrorism case, and I am precluded from 
getting into great depth about the case, but I can tell you 
that it proceeded to point where we submitted an affidavit for 
a wiretap to Washington, DC, main Justice. In that affidavit, 
which it was a consensus of everyone involved that there was 
sufficient probable cause to pursue the wiretap, terrorism was 
referenced on 49 occasions. Osama bin Laden by name was 
referenced on three occasions, and Al Qaeda once. That 
affidavit stalled in Washington for a period of over 127 days.
    After not being able to move that case forward, I wrote a 
letter to GAO, the IG from DHS, and the IG from DOJ. I heard 
nothing, and essentially saying that a case involving our 
national security was being compromised. I heard nothing from 
the oversight agencies. I then wrote to Senator Grassley's 
office. Senator Grassley initiated an inquiry. And the IGs, the 
response from the FBI initially there was a Dateline story. The 
original response from the FBI was that it was nothing more 
than a dispute between agencies on how to pursue a given 
investigation and that all terrorism leads are vigorously 
pursued.
    When questioned on the House Judiciary by Senator Grassley, 
Mr. Mueller would testify that the affidavit had, in fact, been 
delayed and that there were differences in recollection of 
events by some of the agents involved.
    To cut to the chase, in addition to the troubles that ICE 
is having with prioritization, it has jurisdictional issues. If 
ICE is not going to be able to pursue cases that relate to our 
national security, there is a built-in disincentive to initiate 
these kinds of cases. If, as we heard earlier, if the agents 
are going to be required to turn it over to another agency.
    [The prepared statement of Mr. Webber follows:]
    [GRAPHIC] [TIFF OMITTED] T9581.081
    
    [GRAPHIC] [TIFF OMITTED] T9581.082
    
    [GRAPHIC] [TIFF OMITTED] T9581.083
    
    [GRAPHIC] [TIFF OMITTED] T9581.084
    
    [GRAPHIC] [TIFF OMITTED] T9581.085
    
    [GRAPHIC] [TIFF OMITTED] T9581.086
    
    Mr. Shays. OK. Thank you very, very much.
    I am going to start out with the professional staff.
    Ms. Daniel. Mr. Webber, we will start with you. You have a 
unique perspective in that you have a number of years of 
experience before ICE was formed and then you were there during 
its formulation and then for a little while thereafter.
    A lot of your testimony speaks about coordination problems 
and turf battles, and I am wondering to what extent the 
problems of interagency coordination existed before the 
creation of ICE and were carried over. In particular, it was 
one thing that makes me think about this is it is curious that 
your agency needed the FBI's permission to change its name. I 
wondered if you could speak a little bit more about that in the 
broader context.
    Mr. Webber. Well, first to the turf battle issues. 
Unfortunately, turf battles are an unfortunate reality in law 
enforcement. At a time, the competitive spirit works to a 
certain extent, and at times, it becomes counterproductive. It 
has been my experience, and I was a SAC. I have been 32 years 
on the job, and a SAC in three different cities--El Paso, New 
York, and Houston--that if an issue got to a high enough level, 
it would get resolved. That, to me, seems to be what is 
missing. And, of course, at the time, CBP and ICE it was all 
Customs and Immigration. And needless to say, the Commissioner 
of Customs, as an example, wouldn't want to hear that there was 
a dispute between a Port Director and a SAC. It just didn't 
happen.
    Problems would not get escalated to headquarters like that. 
There was pressure to make sure that things got worked out at 
the local level.
    As to the name issue, it is my understanding that when a 
proposed name change was floated to D.C., it was sent to the 
other agencies and the FBI opposed ICE's changing its name.
    ICE is the only agency I believe in Federal Government that 
has an acronym on its badge. It doesn't say Immigration and 
Customs Enforcement. It says ICE. And there were efforts to 
change it to Investigations and Criminal Enforcement and the 
Bureau, as I understand it, blocked that move and badges and 
credentials weren't issued for over 2 years.
    Ms. Daniel. I am also interested in the ideas that you have 
to reform the problems that exist right now. You are obviously 
embroiled in something resulting from the memorandum of 
understanding between the FBI and ICE. There are a number of 
other memoranda of understanding or of agreement between other 
various DHS and outside components. Some believe that these 
simply don't work; that it is just a piece of paper, and when 
it gets out into reality, it sort of looses its umph.
    If you contend that the memoranda of understanding are an 
ineffective way of resolving interagency problems, what do you 
recommend instead?
    Mr. Webber. Well, from my perspective, and I think what the 
American public wants from us is they want law enforcement 
agencies working together, communicating, and working in a 
cooperative environment. That is very easy to say obviously, 
but hard to do.
    From my perspective, it is leadership. I mean these are all 
executive agency entities. And particularly in a post September 
11th environment, it shouldn't be tolerated. Last week's 
testimony on Moussaoui sentencing. Why in a post September 11th 
environment would anyone get in the way of pursuing a 
terrorist-related lead? The objective should be to get behind 
it and try to help, not impede.
    Ms. Daniel. OK. I would like to ask Ms. Fredrickson a 
question.
    You were talking about the creation of artificial barriers 
and the ideological exclusion provision as something that 
ultimately compromises the ability of the American people who 
might otherwise hear what people have to say to make 
independent decisions. In cases like Dr. Ramadan's, according 
to the evidence you present, it seems that he has been one 
might say wrongly excluded. But the question is that then going 
through case by case, where do you draw the line in excluding 
or including? How do you avoid casting the net too wide, but 
specifically what criteria should the United States use to 
distinguish between the exercise of the freedom of speech and 
advocacy of ideologies that may genuinely pose a threat to U.S. 
national security?
    Mr. Shays. Before you answer that, does he have a freedom 
of speech issue or is your claim that the American public has 
the right to hear his speech?
    Ms. Fredrickson. Yes. The case law--and there is a very 
well established case law in this area--shows that this free 
speech right is clearly with the Americans and citizens and 
residents here who have the right to associate and hear ideas, 
and the Supreme Court has spoken very loudly on this, 
particularly relating to the exclusion of visitors--and the 
viewpoint exclusion in particular, and I think to answer your 
question, the issue here is about speech. And I think that is 
where the Supreme Court has drawn the line; the other courts 
have drawn the line. When that is the only reason someone is 
being excluded, that is unacceptable viewpoint discrimination. 
That is not allowed under the first amendment.
    Mr. Shays. Even if it is--allegedly, maybe not in this 
case, but inciting people to riot, to overthrow the U.S. 
Government, to do damage to the government, they would have 
that right, even as non-Americans?
    Ms. Fredrickson. Well, this is someone's point of view, but 
not actions associated with espousing, persuading people to 
take actions are in a different category. What has happened 
here is that the way that the provision has been interpreted in 
particular by the State Department in their manual is to set a 
very, very, very broad parameter for who can be excluded and 
that is--for people really the language--I don't have it right 
in front of me--but is pretty much for unacceptable ideas.
    And so in the past, this particular provision has been used 
to exclude a wide variety of artists and scholars, and there 
was an ideological exclusion provision that existed prior to 
the Patriot Act was in the 1980's and early 1990's. I think it 
was removed from the law at that point, but previous to that, 
it had been used quite a bit in the 1950's and 1960's, and so 
to keep out some very, very well known individuals--novelists 
and so forth like Graham Greene, Dario Fo, and so forth, and 
people who pose no threat to our way of government; have no 
national security implications in their writing. And I think 
Dr. Ramadan is an incredible case, because he, in particular, 
has been so involved in trying to advocate a moderate point of 
view in Islam. He was actually appointed by Tony Blair to a 
commission on how to reduce terrorism.
    I think it shows that with that kind of provision in the 
law and the breadth of the interpretation imposed on it by the 
State Department, you reach results that are very profoundly 
dangerous for our way of government.
    Ms. Daniel. Dr. Ryan, you discussed that the first step to 
take in applying risk management and outcome-based performance 
monitoring and bringing that together is to assess the mission 
and vision statement of a particular entity.
    The Bureau of Immigration and Customs Enforcement [ICE], is 
responsible for reducing national security vulnerability in a 
wide variety of investigative areas and often, as we have heard 
discussed a lot today, in coordination with many other entities 
at the same time.
    So what steps should ICE take to apply risk management to 
multi-level governmental enforcement efforts to achieve one 
clear sort of both risk assessment and outcome-based 
performance measures?
    Dr. Ryan. Well, I just have to back off for a second and 
say I really don't understand the structure of ICE, and that 
kind of decision needs to be given to ICE itself. The different 
levels in that bureaucracy need to address each of those 
questions--how are they going accomplish. The vision and 
mission statement is a very important tool.
    I will give you one example: When the 1994 Crime Act was 
passed, a major segment of that, $6 billion, was allocated to 
hiring police officers, and the task was very simple: how do 
you get those officers out there? It was very clear, the 
direction was clear, and it was accomplished, so I have to back 
off. I am not sure exactly what ICE is trying to accomplish. It 
sounds like it is trying to accomplish many things, but I would 
submit to their expertise, and I did mention in my testimony, 
in my written testimony also, that a vision and mission 
statement should be made up by everybody in the agency, and 
including outside agencies if their activities impact on 
another agency.
    Ms. Daniel. Risk assessment is something that can be 
coordinated, though, at a multi-agency level?
    Dr. Ryan. Well, once the agency itself, namely ICE, 
identifies its risk, OK, I mean, I'm sorry. I need to back up. 
The way an agency identifies its risk is everybody in the 
agency agrees what the risks are. They have to do it 
themselves. If the FBI is going to tell ICE what the risks are, 
that is a wrong direction. ICE needs to identify its own risk.
    Ms. Daniel. Mr. Webber, did you want to add anything to 
that?
    Mr. Webber. No, I would agree wholeheartedly, and I think 
Dr. Ryan's comments earlier about the division, the mission, 
and the vision is the problem and that--when people come to 
work in the morning, they don't need to question what they are 
there for.
    Ms. Daniel. For my final question I would address something 
to all three of you. You are all here from very different 
backgrounds. Dr. Ryan is from an academic and law enforcement 
angle. Ms. Fredrickson is from a legal and activist 
perspective, and Mr. Webber is from the Bureau itself, with, as 
I said earlier, a span of perspective.
    What ties you together here is essentially the idea that 
wrong or badly defined investigative priorities in this kind of 
situation are almost as bad as none at all.
    And you are all personally or professionally invested in 
how well ICE operates in the interest of national security, 
either as professionals whose work is connected to ICE or as 
private citizens who, like all of us, are affected by national 
security interests.
    So from each of your respective vantage points, what would 
you put forth as the single most important reform that ICE can 
implement now in order to effectively make national security an 
investigative priority?
    Dr. Ryan. Well, I will just start by going back to my 
testimony that the priority should be that ICE should set up 
its own vision and mission statement, and it should be shared 
with everyone in the organization, and it should be made 
public, so I, Joe Q. Citizen, can know what my government 
agency called ICE is doing for me.
    Ms. Daniel. Ms. Fredrickson.
    Ms. Fredrickson. One of the things that the ACLU likes to 
say is that we don't have to make a tradeoff between our 
security and our civil liberties, and I think that the 
ideological exclusion provision in the law really demonstrates 
how wrong headed some of these provisions can be in actually 
undermining American freedom and undermining the exchange of 
ideas; that it can actually help us hopefully to win the hearts 
and minds of people in the Middle East.
    So I think what I would suggest is that I think that the 
agencies really need to assess at what point we make that 
balance or when tradeoffs need to be made, and I think those 
kinds of decisions need to be scrutinized very, very carefully 
because I think that the tendency has been certainly since 
September 11th to lean way too far to the side of sacrificing 
our civil liberties with very little security benefits to show 
for it.
    Ms. Daniel. Mr. Webber.
    Mr. Webber. Dr. Ryan's testimony I think provides a lot of 
insight. I think the agency needs to, although it is 3 years 
old now, it needs to get back to basics. It needs to get back 
to a clear cut mission, clear cut jurisdiction, clear cut 
priorities, and communicating it to all employees.
    Ms. Daniel. Thank you.
    Mr. Shays. As I have been thinking about this panel, I 
think the points are so basic, it is almost like what do you 
say again? I can ask you to say it 100 different ways, but I 
would like to say that my view is obviously, as also pointed 
out to me, if you set the wrong priorities, that is probably 
worse than having any priority. But clearly, it is kind of 
basic, Dr. Ryan, that you would set priorities and that you 
would make them known to everyone in the agency, and they would 
work by it, and it would be shared and known by the public. 
There would be no reason not to, it strikes me.
    Ms. Fredrickson, I know ACLU likes to say there is no 
tradeoff between freedom of speech and security, and I had this 
feeling like that is what you like to say, but the fact that 
you like to say it doesn't make it true. And, because I think 
there is constant tradeoffs, and I would love to just explore 
that a little bit with you. I feel I am being asked to make 
decisions every day about how far we go and backing off or go 
forward a little bit more that would tend to threaten speech.
    Is it that we basically think that speech is so important 
that there will never need to be a tradeoff?
    Ms. Fredrickson. Well, there are obviously some 
restrictions that exist in the law that are based on specific 
needs that are defended by specific types of examples and 
evidence. And those clearly need to exist. You know don't yell 
fire in a crowded theater; right? There are things that do 
actually make a lot of sense in terms of protecting us in a 
variety of ways.
    Mr. Shays. Right.
    Ms. Fredrickson. However, it is a fundamental value and a 
fundamental right in this country that is protected by the 
first amendment, and I think it is critically important that as 
we review new legislation and look at policies that are coming 
out of the agencies, we always remember that is the backbone of 
the American republic; that is what really defines us. And so 
we do live in a time when people feel like there is some danger 
at hand, but those are the times in this country when we have 
been at war or in other circumstances, and we have made the 
deepest incursions into civil liberties.
    Mr. Shays. You don't think we are in danger now?
    Ms. Fredrickson. I am not suggesting that. I am saying that 
at times of war and other circumstances----
    Mr. Shays. Right.
    Ms. Fredrickson [continuing]. There has been a tendency in 
this country to take the actions that we have most regretted in 
terms of our civil liberties. You only need to talk about the 
Japanese Americans to think about what are the possibilities of 
going too far down that road, and we really need to be very 
careful at not overreacting and really undermining the very 
reason that the United States is such a profound beacon for the 
world.
    Mr. Shays. Right. But your basic point that I am hearing is 
that, in your judgment, we are doing some pretty dumb things 
that threaten our speech and are a waste of our time and 
energy. That would be a basic point that you would make, and 
you used it with one example.
    Ms. Fredrickson. Well, I think that the Ramadan case is a 
very clear cut example.
    Mr. Shays. Right. And you----
    Ms. Fredrickson. And that's an absurdity, but, you know, 
from the ACLU's point of view, we raise very strong concerns 
about the current version of the Patriot Act that passed. We 
are very disturbed by the President's authorization of 
surveillance in violation of Foreign Intelligence Surveillance 
Act.
    Mr. Shays. Right.
    Ms. Fredrickson. The use of torture and other types of 
abuse at Guantanamo. I mean there are a whole range of areas 
where we do think that the actions that have been taken are not 
consonant with our fundamental values as a Nation and actually 
have done little to enhance our national security, and in some 
cases, I would actually argue have damaged it by really 
undermining our ability to reach people in the Middle East and 
to talk to others and have a dialog about democracy and the 
value of human rights and civil liberties.
    Mr. Shays. All right. Mr. Webber, I wondered if you can 
elaborate a little bit, because it is almost so absurd. Is it 
your contention that basically when you were told the story of, 
you know, what do we need, you were there?
    Mr. Webber. I----
    Mr. Shays. You know what do we need? A PowerPoint? Was the 
inference of the individual saying it that Assistant Secretary, 
you know, guys, let's just get our hands dirty and let's just 
get on with it? Or what came across was just this almost 
belittling of even having to set priorities and to have a clear 
understanding of where we are headed. I mean was there any 
reason? I am just curious why no one like said, hello, what do 
you mean, boss? Explain to me. I mean we are not going to set 
priorities. I mean I wonder if you had said that to him, he 
would have said, of course, I am not saying that. In other 
words, is this a fair description of what happened, because, if 
it is, it is a real indictment.
    Mr. Webber. Sir, it is more than fair. It is a quote. I 
asked the question, and I framed it, and I think in a positive 
way, you know, let's roll up our sleeves. Let's carve out a 
mission statement. Let's carve out priorities. And I think I 
was----
    Mr. Shays. And you actually talked about carving out 
priorities?
    Mr. Webber. Yes, sir, specifically.
    Mr. Shays. OK.
    Mr. Webber. And the response was in a very condescending 
way, will you need a PowerPoint, as if don't you understand----
    Mr. Shays. And then what happened?
    Mr. Webber. And then that was the end----
    Mr. Shays. Now, were you so taken back, you weren't 
inclined to pursue it more. I mean----
    Mr. Watt. Well, other----
    Mr. Shays [continuing]. I mean like say, you know, hello. 
No, I don't want a PowerPoint. I just want us to set some 
priorities here. I mean I don't know how you would have said 
it, but----
    Mr. Webber. Well, actually there were several other SACs 
engaged in the conversation as well, and followup questions, 
and another response we would typically could get was, you 
know, we haven't shut anything down. You know, what are the 
priorities? Well, we haven't shut anything down.
    Mr. Shays. So, in other words, we got to keep doing what we 
are doing?
    Mr. Webber. Correct. We were continually pressing for what 
is the mission. I mean unfortunately and again the budget was a 
big problem, but you have two different cultures, and, you 
know, there was an inclination by some to stay in their comfort 
zone. There were Customs agents that didn't want to pursue 
immigration violations; immigration agents didn't want to 
pursue customs violations. And training I think was a critical 
component. We didn't have the money for it. And co-location. We 
still had people in different buildings.
    But if, at a minimum, if we could communicate this is the 
mission. These are the priorities, and this is what is expected 
of you. No one showed up at today's hearing with an 
investigative strategy. No one showed up with here is the 
roadmap. That is what we pursued, and, yes, in a very 
belittling way. It was, don't you get it? You need a 
PowerPoint?
    The same with the incidents I discussed relative to--there 
was open criticism of the legacy customs: you spend too much 
time on drug cases. But when pressed, what is the right amount 
of time? And where to reinvest the savings? There were no 
answers.
    Mr. Shays. So how did you react to Mr. Schoch's testimony?
    Mr. Webber. Well, I actually like Bob quite a bit, and Bob 
is in difficult position. It is nice to be here as a citizen. 
No one edited my presentation, and tonight I can only get 
debriefed by my wife.
    So it is a little bit different I think. But I looked at 
Mr. Schoch's written testimony and some of which he didn't 
cover in his oral testimony, but it repeatedly talks about we 
task the SACs to conduct a threat assessment on financial, on 
smuggling, and we task the SACs. What is missing in the 
equation, from my view is the leadership from headquarters. 
Where is that national threat assessment, and where are the 
national priorities?
    I would also strongly argue as a SAC that there needs to be 
some flexibility for local threats. But you should be held 
accountable for what you use your resources for.
    Mr. Shays. How did you react, Ms. Fredrickson, to his 
testimony?
    Ms. Fredrickson. It makes a lot of sense to me.
    Mr. Shays. No, not what Mr. Webber said, but what Mr. 
Schoch said?
    Ms. Fredrickson. To Mr. Schoch----
    Mr. Shays. I am going to ask you the same thing, Dr. Ryan.
    Ms. Fredrickson. Well, I guess I was most clearly 
interested in his answer to Mr. Van Hollen's question about the 
Ramadan case. I was a little disappointed that he really didn't 
come anywhere close to providing an answer for that. I think 
there really is not a defensible answer in this case for 
excluding Mr. Ramadan, and I think it would be very hard to 
come up here and tell you that there were such an answer.
    So I think it was a little disappointing, but 
understandable from his point of view I guess.
    Mr. Shays. Yes. Beyond that issue. Any other point? Any 
other reaction?
    Ms. Fredrickson. I mean we are not primarily in the 
business of risk assessment and so forth and making those kinds 
of determinations about governmental resources. So I would want 
to defer to----
    Mr. Shays. Well, you know, I was thinking, though, 
actually, you should be, because really what one of your 
messages to us is, as I am hearing it, don't strain out gnats 
and swallow camels. In other words, while you are worrying 
about Mr. Ramadan, you are not worried about other things.
    I would think that is kind of your message to us, not that 
you shouldn't be worried about anything, but that your 
priorities are wrong. Get your priorities right, which says to 
me that you have to be interested in what their priorities are 
in order to have a comfort level that they have it right. You 
know what I am saying?
    Ms. Fredrickson. Yes. And certainly, to some extent, that 
is a fair assessment of our position in that we don't think 
that these are avenues that should be pursued because they 
don't actually enhance our national security, but beyond that, 
how the priorities are made between different types of threats 
that actually do challenge our national security, I would have 
to defer to the experts on that.
    Mr. Shays. See what is interesting to me is that we have 
had hearings on the whole issue of declassification and over-
classification and pseudo-classifications, and you all caught 
my interest when you said you didn't read the report, and I 
asked staff what they sent you, and they sent you this one 
page, and on the top of it is written law enforcement 
sensitive. Well, this is not a secret document. It doesn't have 
to follow any of the rules. They just stamped it as law 
enforcement sensitive, which means that when GAO looks at 
something law enforcement sensitive, they have to stamp it as 
law enforcement sensitive, which means that somehow you are not 
allowed to look at this, even though it doesn't require a 
classified security background in order to look at it. It is 
their own document that they basically said you can't see, 
which is really curious as hell to me. Dr. Ryan.
    Dr. Ryan. In response to that or in response to----
    Mr. Shays. Well, I do want to first in terms of what Mr. 
Schoch said. I am curious as to how you reacted to what he 
said.
    Dr. Ryan. What I think is interesting is what was not said.
    Mr. Shays. Right.
    Dr. Ryan. Obviously, the GAO report came out and they were 
recommending a series of things that I am hear him saying we 
are looking upon them favorably. So what is favorably to look 
at it upon. I mean they were not specific in his--his responses 
were not specific.
    Mr. Shays. OK. How about this issue?
    Dr. Ryan. I think it is quite interesting--my background is 
law enforcement sensitive--and I read that one page. It is a 
management document. I don't think there was anything 
controversial. I mean I guarantee if I read the report right 
now, I would not be shocked that someone else in the world is 
going to find out this super secret information.
    Mr. Shays. That I saw and what staff saw, there is no 
reason why you all couldn't have been able to read it, and it 
would have been helpful to have had you read it, and what I 
probably should have done is been aware of it, and I probably 
could have given it to you. Staff might have been more on 
questionable grounds. But it does raise, you know, some real 
issues about priorities and what we are protecting and who we 
are protecting them from.
    My general view is that the problems we see in homeland 
security are not that we brought together the parts of 22 
agencies and 180,000 people. It is really the ability of people 
to take this opportunity, as I would call it, and make it into 
something that can be more productive, and not because we never 
should have done it in the first place. I mean I have no 
problem with Customs and INS investigative being together. It 
seems logical to me, and it seems to me there could be 
synergies and so on.
    You are not in your head, Mr. Webber, do you disagree or--
--
    Mr. Webber. No, sir. I agree.
    Mr. Shays. OK.
    Mr. Webber. I agree.
    Mr. Shays. OK. Yes.
    Mr. Webber. If I may, sir, I think what is missing is we 
haven't capitalized on that synergy.
    Mr. Shays. Yes.
    Mr. Webber. I think there is some great potential there.
    Mr. Shays. Any last point that any of you would like to 
make. There may have been something in your testimony you want 
to emphasize and so on.
    Dr. Ryan. You had made a comment earlier about my comments 
being so logical. I am sorry they are. And it is so simple that 
one thing I did do is I gave you in my written testimony a copy 
of the San Diego Police Department's vision and mission 
statement. You can go to their Web site and you can find it. I 
went to DHS' Web site, and I found their mission statement. I 
went to ICE's Web site, and I did not find a mission statement.
    Mr. Shays. You know what? I was thinking as you were 
speaking, I was curious to know if Mr. Schoch would stay and 
listen to your testimony. Sometimes Department heads stay and 
listen to what the next panel says. And I wish he had, and I 
would have liked to have brought him up here. So I think what I 
will ask the staff to do, the professional staff, is to write a 
letter just based on that one comment that you ended up with 
and say that is what we found; it is based on your points, Mr. 
Webber, as well; that these are pretty basic stuff, and I 
really should have asked him exactly for that and why it isn't 
on--available on the Web and so on. Why we aren't seeing that 
very clearly delineated. You follow what the point is? Just 
basically your point: This is the San Diego Police Department?
    Dr. Ryan. Yes, it is in the document.
    Mr. Shays. Right.
    From your own statement, we will take that and ask how come 
we are not seeing it here? Is it they don't have the 
capability; that they have done it and clearly just choose not 
to share it? Why not?
    Any other comment? Ms. Fredrickson, any?
    Ms. Fredrickson. No, I would just like to thank you for 
holding this hearing.
    Mr. Shays. It was nice to have all three of you. Thank you, 
Mr. Webber, as well.
    Take care.
    Mr. Webber. Thank you.
    Mr. Shays. With that, this hearing is adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
